                                              EMPLOYMENT AND TRAINING
                                              ADMINISTRATION

Office of Inspector General-Office of Audit




                                              WORKFORCE INVESTMENT ACT
                                              NATIONAL EMERGENCY GRANT
                                              CHINATOWN MANPOWER PROJECT, INC.




                                                                 Date Issued: September 2, 2005
                                                                 Report Number: 02-05-203-03-390
U.S. Department of Labor                                  September 2005
Office of Inspector General
Office of Audit                                           WORKFORCE INVESTMENT ACT NATIONAL
                                                          EMERGENCY GRANT - CHINATOWN
BRIEFLY…                                                  MANPOWER PROJECT

Highlights of Report Number: 02-05-203-03-390, to         WHAT OIG FOUND
the Assistant Secretary, Employment and Training.
September 2, 2005
                                                          The audit found that the allegations of delays in
WHY READ THE REPORT                                       paying teachers, employment assistance not being
                                                          provided to participants, and teachers not being
                                                          present or qualified to teach English as a Second
Chinatown Manpower Project, Inc. (CMP) received a         Language classes were without merit.
$1.1 million contract under a $25 million Workforce
Investment Act National Emergency Grant (NEG)             However, the audit identified three areas of
that the U. S. Department of Labor (Department)           reportable conditions. First, CMP did not maintain a
awarded the New York State Department of Labor            system to properly allocate direct and indirect costs
(NYSDOL) after the September 11, 2001, attack on          to final cost objectives. Costs were allocated using
the World Trade Center (WTC). The purpose of the          predetermined estimates based on budgeted
NEG was to provide core, intensive, and training          amounts, and not based on benefits received.
services for workers who lost their jobs as a result of   Second, CMP and its subcontractors were unable to
the WTC attack. A complaint was filed with the            provide verification of eligibility for participants
Office of the Secretary of Labor alleging misuse of       served. Based on the information provided
departmental funds by CMP. This report discusses          NYSDOL could not certify whether participants were
issues surrounding the hotline complaint, participant     dislocated or unable to find work as a result of the
eligibility, whether cost principles and procurement      WTC disaster or other reasons. Third, CMP did not
regulations were followed.                                follow procurement regulations when awarding
                                                          subcontracts under the NEG. There were no
WHY OIG DID THE AUDIT                                     solicitations to obtain competition, nor technical and
                                                          cost evaluations, as required by Federal regulations.
The Office of Inspector General (OIG) initiated an
audit in response to a hotline complaint referred to      WHAT OIG RECOMMENDED
us by the Office of the Secretary of Labor alleging
misuse of departmental funds by CMP including
delays in paying teachers, employment assistance          We recommended that Assistant Secretary for
not being provided to participants, and teachers not      Employment and Training require NYSDOL to: 1)
being present or qualified to teach English as a          obtain an accounting of actual costs incurred under
Second Language classes. The OIG conducted a              the CMP contract and subcontracts; 2) obtain
performance audit of CMP to determine if these            documentation of a system that properly allocates
allegations were valid.                                   CMP costs to final cost objectives; 3) consider
                                                          having NYSDOL verify participant eligibility when
                                                          self-certifications are used to expedite the eligibility
READ THE FULL REPORT                                      process; 4) ensure that on future awards that include
                                                          self-certification processes, regular eligibility
                                                          verification is performed; and 5) ensure that
To view the report, including the scope,                  NYSDOL follow applicable procurement regulations
methodology, and full agency response, go to:             on future awards.
http://www.oig.dol.gov/publicreports/oa/2005/02-05-
203-03-390.pdf.                                           In its response to the draft report, NYSDOL
                                                          respectfully declined to comment other than to say
                                                          that they feel strongly that overall the program was
                                                          effective.
                                                        Workforce Investment Act National Emergency Grant
                                                                              Chinatown Manpower Project


Table of Contents
                                                                                                                          PAGE

EXECUTIVE SUMMARY .......................................................................................... 3

ASSISTANT INSPECTOR GENERAL’S REPORT .................................................. 7

ALLEGATIONS WITHOUT MERIT .......................................................................... 8

FINDINGS AND RECOMMENDATIONS.................................................................. 8

    Finding 1 - Costs Were Not Properly Allocated .......................................................... 8

    Finding 2 - Individuals Served May Not Have Been Affected by
                World Trade Center Terror Attack............................................................. 11

    Finding 3 - Subcontractors Were Selected Without Competition ............................. 12

EXHIBITS ............................................................................................................................ 15

   A. Schedule of Reported Costs .................................................................................... 17
   B. Schedule of Lower-Tier Subcontractor Costs ........................................................ 19

APPENDICES....................................................................................................................... 21

    A.   Background ................................................................................................... 23
    B.   Objectives, Scope, and Methodology.......................................................... 25
    C.   Acronyms....................................................................................................... 29
    D.   Agency Response to Draft Report ............................................................... 31




U.S. Department of Labor—Office of Inspector General                                                                            1
Report Number: 02-05-203-03-390
Workforce Investment Act National Emergency Grant
Chinatown Manpower Project




               PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 02-05-203-03-390
                                    Workforce Investment Act National Emergency Grant
                                                          Chinatown Manpower Project




Executive Summary
This report summarizes the results of our performance audit of a $1.1 million
contract awarded to Chinatown Manpower Project, Inc. (CMP) by the New York
State Department of Labor (NYSDOL). NYSDOL awarded the contract under a
$25 million national emergency grant (NEG) received from the Employment and
Training Administration (ETA). The primary purpose of the NEG was to assist
workers who were dislocated by the September 11, 2001, terrorist attack on the
World Trade Center (WTC).

This audit was initiated in response to a hotline complaint originally sent to the
Secretary of the U. S. Department of Labor that was referred to OIG for action.
The audit objectives of this report were to determine if:

   •   allegations in a hotline complaint were valid;

   •   cost principles were followed;

   •   participants were eligible; and

   •   procurement regulations were followed.

Results

We found that:

   1. Allegations regarding the misuse of Government funds, including delays in
      paying teachers, employment assistance not being provided to
      participants, and teachers not being present or qualified to teach English
      as a Second Language classes, were without merit.

   2. CMP did not maintain a system to properly allocate direct and indirect
      costs to final cost objectives in accordance with applicable cost principles.
      Costs were allocated using predetermined estimates based on budgeted
      amounts, and not based on benefits received as required by OMB Circular
      A-122. Further, there was no approved indirect cost rate for either CMP or
      its subcontractors, despite having received funding from more than one
      source. As a result, CMP could not determine the appropriate amount that
      should have been allocated to the contract and reported to ETA.




U.S. Department of Labor—Office of Inspector General                                 3
Report Number: 02-05-203-03-390
Workforce Investment Act National Emergency Grant
Chinatown Manpower Project


     3. CMP and its subcontractors were unable to provide verification of
        eligibility for participants served. To enroll in the program, participants had
        to complete a self-certification form and check one of two boxes indicating
        that they were either (1) laid-off as a result of the World Trade Center
        (WTC) disaster or (2) a dislocated worker as defined in Workforce
        Investment Act (WIA). While 69 of the 70 participant files that we tested
        contained this self-certification form, 7, or 10 percent of the participants,
        did not check any of the eligibility boxes, and none of the participant files
        tested contained verification of eligibility as required by the NEG
        agreement. Therefore, based on the information provided, NYSDOL could
        not certify whether participants were dislocated or unable to find work as a
        result of the WTC disaster or other reasons.

    4. CMP did not follow procurement regulations when awarding subcontracts
       under the NEG. There were no solicitations to obtain competition, nor
       technical and cost evaluations1, as required by Federal regulations. This
       condition occurred because CMP did not have written procurement
       procedures, and NYSDOL, with USDOL guidance, requested that CMP
       award subcontracts to specific organizations. CMP awarded subcontracts
       to the Chinese Christian Herald Crusade (Herald), and the Chinese-
       American Planning Council (Council) after they were identified and
       recommended as providers by USDOL personnel. In addition, CMP, on
       its own, selected New York Urban League (NYUL) without competition as
       a subcontractor based on NYUL’s experience in serving dislocated
       workers. As a result, there is no assurance that the most qualified
       subcontractors were selected at the best price.

Recommendations

We recommend that the Assistant Secretary for Employment and Training
require NYSDOL to:

1. obtain an accounting of actual costs incurred under the CMP contract and
   subcontracts, including an approved indirect cost rate, based on allocation
   methodologies that are in accordance with applicable Federal cost principles.
   NYSDOL should recover amounts determined to have been claimed in
   excess of actual costs;

2. obtain documentation of a system that properly allocates CMP costs to final
   cost objectives;



1
  NYSDOL performed cost analyses. However, there was not sufficient documentation to determine if
each element of cost was allowable, allocable and reasonable.


4                                       U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 02-05-203-03-390
                                    Workforce Investment Act National Emergency Grant
                                                          Chinatown Manpower Project



3. consider having NYSDOL verify participant eligibility when self-certifications
   are used to expedite the eligibility process, as required by the grant
   agreement;

4. ensure that on future awards that include self-certification processes, regular
   eligibility verification is performed; and

5. ensure that NYSDOL follow applicable procurement regulations on future
   awards.

Agency Response

The NYSDOL’s Director of Internal Audit provided a written response on
August 16, 2005. She stated:

       At this time, the Department respectfully declines to comment other
       than to say that we feel very strongly that overall the program was
       effective and believe this is evidenced by the fact that your auditors
       were unable to find any validity to the complaint which was the
       driving force behind the initiation of this audit. This contract was
       monitored according to established procedures and the Department
       stands behind the work of our field program and fiscal staff.

NYSDOL response in its entirety is attached as Appendix D.

OIG Conclusion

NYSDOL’s response did not specifically address the recommendations. Since
no additional information was provided, the report findings remain unchanged.
The recommendations will be resolved during DOL’s formal audit resolution
process.




U.S. Department of Labor—Office of Inspector General                                 5
Report Number: 02-05-203-03-390
Workforce Investment Act National Emergency Grant
Chinatown Manpower Project




               PAGE HAS BEEN INTENTIONALLY LEFT BLANK




6                                U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 02-05-203-03-390
                                    Workforce Investment Act National Emergency Grant
                                                          Chinatown Manpower Project

U. S. Department of Labor            Office of Inspector General
                                     Washington, D.C. 20210




                      Assistant Inspector General’s Report



Ms. Emily Stover DeRocco
Assistant Secretary
  for Employment and Training
U.S. Department of Labor
200 Constitution Ave., N. W.
Washington, DC 20210


This report summarizes the results of our performance audit of a $1.1 million
contract awarded to Chinatown Manpower Project (CMP) by the New York State
Department of Labor (NYSDOL). NYSDOL awarded the contract under a $25
million national emergency grant (NEG) received from the Employment and
Training Administration (ETA). The primary purpose of the NEG was to assist
workers who were dislocated by the September 11, 2001, terrorist attack on the
World Trade Center (WTC).

This audit was initiated in response to a hotline complaint that was referred to us
by your office. A separate audit report was issued to the Secretary of Labor
addressing the U. S. Department of Labor’s involvement in the procurement of
subcontracts. The audit objectives of this report were to determine if:

   •   allegations in a hotline complaint were valid;

   •   cost principles were followed;

   •   participants were eligible; and

   •   procurement regulations were followed.




U.S. Department of Labor—Office of Inspector General                               7
Report Number: 02-05-203-03-390
Workforce Investment Act National Emergency Grant
Chinatown Manpower Project

ALLEGATIONS WITHOUT MERIT

Objective 1 - Were Allegations in a Hotline Complaint Valid?

Results – Allegations Without Merit

The complainant alleged CMP misused Government funds. Specifically, the
complainant referenced newspaper articles alleging delays in paying teachers,
employment assistance not being provided to participants, and teachers not
being present or qualified to teach English as a Second Language classes.
Based on our examination of staff payroll, teacher resume’ and application files,
and testimony of interviewed participants, we found the allegations to be without
merit. Teachers were paid timely, employment assistance (referrals to training,
resume’ writing, interviewing skills, and job referrals) was offered to participants,
and teachers were present and qualified to teach English as a Second Language
classes.

FINDINGS AND RECOMMENDATIONS

Objective 2 - Were Cost Principles Followed?

Finding - Costs Were Not Properly Allocated

Generally, grant costs were allowable and allocable in nature. However, CMP
did not maintain a system to properly allocate direct and indirect costs to final
cost objectives. Costs were allocated using predetermined estimates and not
based on benefits received. Further, there was no approved indirect cost rate for
either CMP or its subcontractors despite their receiving funding from several
sources. As a result, CMP could not determine the appropriate amount that
should have been allocated to the contract and reported to ETA. OMB Circular
A-122 Cost Principles for Non-Profit Organizations Attachment A, Section A.4a
states:

       A cost is allocable to a particular cost objective, such as a grant,
       contract, project, service, or other activity, in accordance with the
       relative benefits received. A cost is allocable to a Federal award if
       it is treated consistently with other costs incurred for the same
       purpose in like circumstances. . . .

NYSDOL performed a financial review of CMP, noted similar problems, and
adjusted the contract price by $6,529. NYSDOL found that CMP did not have a
written cost allocation plan, costs were allocated to the NEG based on the
contract budget, and salaries were allocated without time distribution records.
However, NYSDOL used other methods to determine that costs were
reasonable.


8                                 U.S. Department of Labor—Office of Inspector General
                                                      Report Number: 02-05-203-03-390
                                    Workforce Investment Act National Emergency Grant
                                                          Chinatown Manpower Project


    REPORTED COSTS

CMP reported costs of $1,084,110 for the period ending April 30, 2003 (Exhibit
A), consisting of $422,091 in personnel costs, $76,737 of non-personnel costs
and $585,282 of subcontract costs (Exhibit B).

Personnel Costs

Personnel costs consisted of salaries of $355,607 and fringe benefits of $66,484,
for a total of $422,091. We selected a non-statistical sample of $99,821, or 24
percent of this amount, for testing. CMP did not maintain personnel activity
reports to show how $60,863, or 61 percent, of personnel costs tested were
distributed. Personnel costs were charged to the contract using predetermined
estimates, rather than allocated according to the actual activity of each
employee. This was contrary to OMB Circular A-122, Cost Principles for Non-
Profit Organizations Attachment B, Section 8.m (1) and (2), which states:

       . . . The distribution of salaries and wages to awards must be
       supported by personnel activity reports . . . except when a
       substitute system has been approved in writing by the cognizant
       agency. . . . The reports must reflect an after-the-fact
       determination of the actual activity of each employee. Budget
       estimates (i.e., estimates determined before the services are
       performed) do not qualify as support for charges to awards.

Employee interviews revealed that time allocated did not reflect actual work
performed. Salary and fringe benefit costs for staff were improperly allocated to
the NEG contract. For example, the salary of the intake specialists, whose
duties benefited multiple grants, was charged 100 percent to the NEG contract.
Further, the fiscal officer, bookkeeper and executive director whose job duties
benefited all programs were charged directly to the NEG grant at predetermined
estimated rates based on budgeted amounts for several funding sources. Their
costs should have been accumulated in an indirect cost pool and properly
allocated to all benefiting programs.

Non-Personnel Costs

CMP claimed $76,737 of non-personnel costs consisting of: other operating
expenses $32,304; miscellaneous participant expenses, $19,880; equipment,
$8,843; participant support payments, $7,843; space/utilities, $7,500; and travel,
$367. We selected a non-statistical sample of $26,612, or 35 percent of the total,
for testing. Our tests revealed that $9,958 (37 percent of sampled costs) was
charged to the contract using predetermined estimates, which were not
supported. OMB Circular A-122 Cost Principles for Non-Profit Organizations
Attachment A, Section A.2g states:

U.S. Department of Labor—Office of Inspector General                                9
Report Number: 02-05-203-03-390
Workforce Investment Act National Emergency Grant
Chinatown Manpower Project



        Factors affecting allowability of costs. To be allowable under an
        award, costs must meet the following general criteria. . . . Be
        adequately documented.

Subcontract Costs

CMP claimed $585,282 of subcontract costs. Our testing based on a non-
statistical sample of $83,721, or 14 percent of the total, revealed subcontractors
had allocated $34,714, or 41 percent, of costs in our sample to the contract using
predetermined estimates, rather than actual benefits received. Subcontractors
did not have cost allocation plans and indirect cost rates. As a result, the
subcontractors could not determine the actual amount that should have been
allocated to the contract.



     INDIRECT COST RATE


CMP did not obtain an approved indirect cost rate from its cognizant agency, the
Department of Health and Human Services, despite having several funding
streams. During the audit period CMP received funding from multiple sources,
including the Department of Health and Human Services, Department of
Education, and Department of Labor, as well as private donations. CMP is
required to obtain an approved indirect cost rate to comply with OMB Circular
A-122, Attachment A, Sections E. 2(b) and D.1(b) which state:

        A non-profit organization which has not previously established an
        indirect cost rate with a Federal agency shall submit its initial
        indirect cost proposal immediately after the organization is advised
        that an award will be made and, in no event, later than three
        months after the effective date of the award.

        Where an organization has several major functions which benefit
        from its indirect costs in varying degrees, allocation of indirect costs
        may require the accumulation of such costs into separate cost
        groupings which then are allocated individually to benefiting
        functions by means of a base which best measures the relative
        degree of benefit. The indirect costs allocated to each function are
        then distributed to individual awards and other activities included in
        that function by means of an indirect cost rate(s).

Recommendations

We recommend that the Assistant Secretary for Employment and Training
require NYSDOL to obtain from CMP:

10                                 U.S. Department of Labor—Office of Inspector General
                                                       Report Number: 02-05-203-03-390
                                    Workforce Investment Act National Emergency Grant
                                                          Chinatown Manpower Project

1. an accounting of actual costs incurred under the contract and subcontracts,
   including an approved indirect cost rate, based on allocation methodologies
   that are in accordance with applicable Federal cost principles. NYSDOL
   should recover amounts determined to have been claimed in excess of actual
   costs; and

2. documentation of a system that properly allocates all costs to final cost
   objectives.

Agency Response

In response to our recommendations, the Director of Internal Audit stated:

       At this time, the Department respectfully declines to comment other
       than to say that we feel very strongly that overall the program was
       effective and believe this is evidenced by the fact that your auditors
       were unable to find any validity to the complaint which was the
       driving force behind the initiation of this audit. This contract was
       monitored according to established procedures and the Department
       stands behind the work of our field program and fiscal staff.

OIG Conclusion

NYSDOL’s response did not specifically address the recommendations. Since
no additional information was provided, the report findings remain unchanged.
The recommendations will be resolved during DOL’s formal audit resolution
process.

Objective 3 - Were Participants Eligible?

Finding - Individuals Served May Not have Been Affected by WTC Terror
Attack

Master NEG Agreement No. ER-11796-01-60 Attachment A describes the self-
certification eligibility process, as follows:

       Eligible Participants, Self-Certification – Because of the
       circumstances surrounding the disaster, documentation of eligibility
       may be difficult to obtain. The Department is prepared to accept an
       individual’s signed certification that they meet the eligibility criteria.
       However, as soon as practical, States shall provide for regular
       eligibility verification, and shall take prompt action where an
       ineligible participant is identified. (Emphasis added.)

CMP and its subcontractors were unable to provide verification of eligibility for
participants served. To enroll in the program, participants had to complete a

U.S. Department of Labor—Office of Inspector General                                11
Report Number: 02-05-203-03-390
Workforce Investment Act National Emergency Grant
Chinatown Manpower Project

self-certification form and check one of two boxes indicating that they were either
(1) laid off as a result of the World Trade Center (WTC) disaster or (2) a
dislocated

worker as defined in Workforce Investment Act. Although 69 of the 70 participant
files that we tested contained this self-certification form, 7 or 10 percent of the
participants, did not check any of the eligibility boxes, and none of the 70
participant files contained verification of eligibility as required by the NEG
agreement.

Therefore, based on the information provided, NYSDOL could not certify whether
participants were dislocated or unable to find work as a result of the WTC
disaster or other reasons, and CMP may have served individuals not intended to
be served under the NEG agreement.

Recommendation

We recommend that the Assistant Secretary for Employment and Training:

3. to the extent feasible, consider having NYSDOL verify participant eligibility
   when self-certifications are used to expedite the eligibility process, as
   required by the grant agreement; and

4. ensure that on future awards that include self-certification processes, regular
   eligibility verification is performed.

Agency Response

The Director of Internal Audit declined to comment on these recommendations.

OIG Conclusion

NYSDOL’s response did not specifically address the recommendations. Since
no additional information was provided, the report findings remain unchanged.
The recommendations will be resolved during DOL’s formal audit resolution
process.

Objective 4 - Were Procurement Regulations Followed?

Finding - Subcontractors Were Selected Without Competition

CMP did not follow procurement regulations when awarding subcontracts under
the NEG. There were no solicitations to obtain competition, nor technical and
cost evaluations2, as required by Federal regulations. 29 CFR 95.43 requires

2
 NYSDOL performed cost analyses. However, there was not sufficient documentation to determine if
each element of cost was allowable, allocable and reasonable.
12                                         U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 02-05-203-03-390
                                           Workforce Investment Act National Emergency Grant
                                                                 Chinatown Manpower Project

that “all procurement transactions shall be conducted in a manner to provide, to
the maximum extent practical, open and free competition.” This condition
occurred because CMP did not have written procurement procedures as required
by 29 CFR 95.44, and NYSDOL, with USDOL guidance, requested that CMP
award subcontracts to the Chinese Christian Herald Crusade (Herald), and the
Chinese-American Planning Council (Council). CMP awarded subcontracts to
the Herald and Council after they were identified and recommended as providers
by USDOL personnel. In addition, CMP, on its own, selected New York Urban
League (NYUL) without competition as a subcontractor based on NYUL’s
experience in serving dislocated workers. A fourth subcontractor, the American
Beauty School, was selected from an official list of New York approved training
providers.

Where the award is made without competition, it is incumbent upon the
organization to make available requests for proposals or invitations for bids, and
evaluations of the technical competence and cost estimates of potential
subcontractors. CMP could not demonstrate the aforementioned pre-award
review and procurement documents. Further, neither Congress nor the
Department had established special procurement procedures at the time the

NEG was awarded to NYSDOL that would have given authority to the
Department, NYSDOL, or CMP to select subcontractors without full and open
competition.

NYSDOL did not award contracts to the Herald, and Council directly because,
unlike CMP, they were not on the NYSDOL approved list of dislocated worker
service providers, who, according to NYSDOL officials, had previously
participated in a competitive process.3 Therefore, in order to ensure more
dislocated workers in Chinatown could be helped, NYSDOL, with USDOL
guidance, requested that CMP award subcontracts to the Herald, and Council.

CMP awarded subcontracts to the Herald and Council after USDOL personnel
had identified and recommended the organizations as groups that could help
Chinatown, and the Secretary of Labor had announced that she had designated
$1 million in NEG funds specifically for Chinatown relief efforts. Minutes from
CMP’s December 11, 2001, Board of Directors’ meeting reflected CMP’s
understanding of its role as the fiscal conduit in order to funnel money to the
Herald and the Council:

          Secretary Chao has designated four agencies as recipients of the
          fund. However, CMP is the only agency among the four who has a
          current contract with NYSDOL and therefore, the funds could easily
          be channeled to CMP through a budget modification. Since the
          other agencies do not have any existing contractual relationship

3
    The New York State Comptroller approved the use of this list.

U.S. Department of Labor—Office of Inspector General                                     13
Report Number: 02-05-203-03-390
Workforce Investment Act National Emergency Grant
Chinatown Manpower Project



      with NYSDOL, CMP was asked by NYSDOL to be the fiscal conduit
      to the other agencies in order to funnel the money to them. The
      Board approved CMP as the fiscal conduit for the other three
      agencies, namely the Chinese American Planning Council, Asian
      American Business Development Center, and the Chinese
      Christian Herald Crusade.

The Council was a competitor of CMP. Although the Herald had some
experience in providing English as a Second Language training and legal
services, it did not have any experience in either serving dislocated workers or
administering Federal programs. As a result, there is no assurance that CMP
selected the most qualified subcontractors at the best price.

Recommendation

5. We recommend that the Assistant Secretary for Employment and Training
   ensure that NYSDOL follow applicable procurement regulations on future
   awards.

Agency Response

The Director of Internal Audit declined to comment on this recommendation.

OIG Conclusion

NYSDOL’s response did not specifically address the recommendation. Since no
additional information was provided, the report findings remain unchanged. The
recommendation will be resolved during DOL’s formal audit resolution process.




Elliot P. Lewis
October 12, 2004




14                               U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 02-05-203-03-390
                                    Workforce Investment Act National Emergency Grant
                                                          Chinatown Manpower Project




Exhibits_________________________




U.S. Department of Labor—Office of Inspector General                              15
Report Number: 02-05-203-03-390
Workforce Investment Act National Emergency Grant
Chinatown Manpower Project




               PAGE HAS BEEN INTENTIONALLY LEFT BLANK




16                               U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 02-05-203-03-390
                                          Workforce Investment Act National Emergency Grant
                                                                Chinatown Manpower Project

                                                                                      EXHIBIT A


                                Chinatown Manpower Project
                                 Schedule of Reported Costs4
                      For the Period December 18, 2001 to April 30, 2003



                                                                                      Percent of
                     Category                     Budget              Reported         Budget

    Staff Salaries                                 $355,608              $355,607        100
    Staff Fringe Benefits                             66,485               66,484        100
    Subcontracts (See Exhibit B)                    603,066               585,282         97
    Travel                                              367                   367        100
    Equipment                                          8,844                 8,843       100
    Space / Utilities                                  7,500                 7,500       100
    Other Operating Expenses                          32,322               32,304        100
    Misc. Participant Expenses                        19,882               19,880        100
    Participant Support Payments                       7,843                 7,843       100
    Total                                         $1,101,917            $1,084,110        98




4
    Our audit was not designed to, and therefore we do not, give an opinion on the fair presentation
    of contractor and subcontractor costs reported.

U.S. Department of Labor—Office of Inspector General                                               17
Report Number: 02-05-203-03-390
Workforce Investment Act National Emergency Grant
Chinatown Manpower Project




               PAGE HAS BEEN INTENTIONALLY LEFT BLANK




18                               U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 02-05-203-03-390
                                             Workforce Investment Act National Emergency Grant
                                                                   Chinatown Manpower Project

                                                                                         EXHIBIT B


                               Chinatown Manpower Project
                       Schedule of Lower Tier Subcontractor Costs5
                     For the Period December 18, 2001 to April 30, 2003




                                                               Chinese      Chinese
                                                               Christian    American                   New York
                                                                Herald      Planning     American       Urban
             Category                 Budget       Actual      Crusade       Council      Beauty        League

Staff Salaries                        $345,369     $340,730     $104,226     $175,335            $0         $61,169
Staff Finge Benefits                    69,483       66,077       15,518       36,129                        14,430
Contracted Services                      6,600        6,600                      6,600
Travel                                     688          647            71          576
Equipment                               18,628       18,338         2,225      13,131                         2,982
Space / Utilities                       63,399       61,951       11,239       43,212                         7,500
Other Operating Expenses                47,762       46,052       10,619       19,729                        15,704
Participant Support Payments               675        3,196                      3,196
Misc. Participant Expenses              12,869        5,451         4,487          675                         289
Tuition                                 37,593       36,240             0            0       36,240              0
Total                                 $603,066     $585,282     $148,385     $298,583      $36,240         $102,074




   5
       Our audit was not designed to, and therefore we do not, give an opinion on the fair presentation
       of subcontractor costs reported.

   U.S. Department of Labor—Office of Inspector General                                               19
   Report Number: 02-05-203-03-390
Workforce Investment Act National Emergency Grant
Chinatown Manpower Project




               PAGE HAS BEEN INTENTIONALLY LEFT BLANK




20                               U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 02-05-203-03-390
                                    Workforce Investment Act National Emergency Grant
                                                          Chinatown Manpower Project




Appendices______________________




U.S. Department of Labor—Office of Inspector General                              21
Report Number: 02-05-203-03-390
Workforce Investment Act National Emergency Grant
Chinatown Manpower Project




               PAGE HAS BEEN INTENTIONALLY LEFT BLANK




22                               U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 02-05-203-03-390
                                    Workforce Investment Act National Emergency Grant
                                                          Chinatown Manpower Project


                                                                    APPENDIX A
BACKGROUND

CMP was founded in 1972, as a nonprofit community-based organization in
response to vocational training needs of the growing Asian immigrant and
refugee community. Its mission is to provide vocational training, employment
services, educational programs, and economic development programs to
disadvantaged Asian Americans and the refugee community. CMP’s goal is to
help these groups acquire the necessary skills and resources needed to become
economically self-sufficient and contributing members of mainstream society.
CMP trains over 1,600 individuals a year through vocational programs.

On September 25, 2001, ETA issued Master Agreement Number
ER-11796-01-60 for $25 million to NYSDOL for funds under the NEG program
under WIA, Section 173. Initially, the grant was to assist workers who were
dislocated by the WTC disaster by providing temporary jobs to assist in the
cleanup, repair and reconstruction of public and private nonprofit property. On
October 3, 2001, the grant was modified to provide core, intensive, and training
assistance for workers who lost their jobs primarily as a result of the WTC
disaster. The revision was necessary because the cleanup area was declared a
crime scene, and due to highly specialized nature of the investigations,
temporary jobs near the WTC were prohibited at that time.




U.S. Department of Labor—Office of Inspector General                              23
Report Number: 02-05-203-03-390
Workforce Investment Act National Emergency Grant
Chinatown Manpower Project




               PAGE HAS BEEN INTENTIONALLY LEFT BLANK




24                               U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 02-05-203-03-390
                                    Workforce Investment Act National Emergency Grant
                                                          Chinatown Manpower Project

                                                                      APPENDIX B
OBJECTIVES, SCOPE AND, METHODOLOGY

Objective

The U.S. Department of Labor, Office of Inspector General (OIG), conducted a
performance audit of a $1.1 million contract awarded to CMP by NYSDOL, under
a $25 million NEG received from ETA. The contract covered the period
December 2001 to April 2003.

The audit objectives were to determine if:

            •   allegations in a hotline complaint were valid;
            •   cost principles were followed;
            •   participants were eligible; and
            •   procurement regulations were followed.

Scope

We conducted a performance audit of NEG funds received by CMP from
NYSDOL under Contract Number C009482. The contract period was
December 2001 to April 2003. Total reported expenditure was $1,084,110
including $585,282 of expenditures of four subcontractors: the Chinese-
American Planning Council, Chinese Christian Herald Crusade, American Beauty
School and New York Urban League.

We tested $210,154, or 19 percent of the $1,084,110 reported costs allocated to
the contract. Using non-statistical sampling methods, we examined $26,612 (35
percent) and $99,821 (24 percent) of reported non-personnel and personnel
costs of $76,737 and $422,091, respectively. In addition, we non-statistically
tested $83,721 of reported lower-tier subcontractor costs of $585,282.

To test participant eligibility, services received, and outcomes, we obtained a
listing of all enrolled participants at CMP and its subcontractors. From this list of
577, we selected a non-statistical sample of 70 participants enrolled in the
program. We obtained participant case files and examined all supporting
information.

Methodology

We obtained an understanding of internal controls over subcontracting, cost
allocation and eligibility through inquiries with appropriate personnel, inspection
of relevant documents, and observations of CMP’s operations. We tested
compliance with contract requirements and Federal and state regulations using
the following criteria:


U.S. Department of Labor—Office of Inspector General                               25
Report Number: 02-05-203-03-390
Workforce Investment Act National Emergency Grant
Chinatown Manpower Project



           •   The Workforce Investment Act of 1998

           •   Emergency Supplemental Appropriations Act for the Recovery from
               and Response to Terrorist Attacks on the United States, FY 2000
               (P.L. 107-38)

           •   Office of Management and Budget Circulars A-110 and A-122

           •   Code of Federal Regulations Title 29

           •   New York State Procurement Guidelines

Non-statistical sampling was used to select participant files and to test costs
reported by CMP and its subcontractors. Therefore, the results from our
sampling cannot be projected to the universe. We chose non-statistical sampling
in order to test transactions for compliance with Federal requirements based on
auditor’s experience and professional judgment.

We examined vouchers, general ledgers and supporting documentation including
invoices and payroll records. Non-statistical sampling was used to confirm
indications from CMP and subcontractor officials that costs were allocated to the
contract according to predetermined estimated rates based on budgeted
amounts.

Our audit was not designed to and, therefore, we do not give an opinion on the
fair presentation of contractor and subcontractor costs reported on Exhibits A and
B of this report.

We also used non-statistical sampling to select the numbers of participant files
for review at CMP and its subcontractors. We reviewed participant files to
determine if there was adequate documentation to support eligibility and if
participants were temporarily or permanently impacted by the WTC disaster,
noted services received, and outcomes obtained. We obtained UI wages
information from January 1, 1999, to March 31, 2003, to review data on layoff
employers and outcomes. We did not obtain UI wages for participants who
obtained employment out of state.

We interviewed appropriate officials from the Department, NYSDOL, CMP,
Herald, Council, and NYUL to determine the propriety of awarding the NEG
contract to CMP and its subcontractors.6




6
  All subcontractors were located in New York, NY except for NYUL, which was located in
  Brooklyn, NY.
26                                     U.S. Department of Labor—Office of Inspector General
                                                        Report Number: 02-05-203-03-390
                                    Workforce Investment Act National Emergency Grant
                                                          Chinatown Manpower Project

We conducted our audit in accordance with Government Auditing Standards,
issued by the Comptroller General of the United States, and included such tests,
as we considered necessary to satisfy the objectives of the audit. Fieldwork was
conducted from May 20, 2003, through October 12, 2004, at the Department,
NYSDOL, CMP, Chinese-American Planning Council, Chinese Christian Herald
Crusade, and New York Urban League.




U.S. Department of Labor—Office of Inspector General                              27
Report Number: 02-05-203-03-390
Workforce Investment Act National Emergency Grant
Chinatown Manpower Project




               PAGE HAS BEEN INTENTIONALLY LEFT BLANK




28                               U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 02-05-203-03-390
                                    Workforce Investment Act National Emergency Grant
                                                          Chinatown Manpower Project

                                                                      APPENDIX C
ACRONYMS AND ABBREVIATIONS

CMP              Chinatown Manpower Project

ETA              Employment and Training Administration

NEG              National Emergency Grant

NYSDOL           New York State Department of Labor

OIG              Office of Inspector General

OMB              Office of Management and Budget

WIA              Workforce Investment Act of 1998

WTC              World Trade Center




U.S. Department of Labor—Office of Inspector General                              29
Report Number: 02-05-203-03-390
Workforce Investment Act National Emergency Grant
Chinatown Manpower Project




               PAGE HAS BEEN INTENTIONALLY LEFT BLANK




30                               U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 02-05-203-03-390
                                    Workforce Investment Act National Emergency Grant
                                                          Chinatown Manpower Project

                                                                      APPENDIX D
AGENCY RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                              31
Report Number: 02-05-203-03-390
